No.
IN THE SUPREME COURT OF THE UNITED STATES
DONOVAN JONATHAN TILLMAN, PETITIONER
V.

STATE OF FLORIDA, RESPONDENT.
_____________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA,
FOURTH DISTRICT
_____________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

CAROL STAFFORD HAUGHWOUT
Public Defender
GARY LEE CALDWELL
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561)355-7600; (561) 624-6560
gcaldwel@pd15.state.fl.us
jcwalsh@pd15.state.fl.us
appeals@pd15.state.fl.us

Appendix A - Decision of District Court of Appeal ................................. 1a
Appendix B – Order of Supreme Court of Florida denying review ........ 9a
Appendix C – Petitioner’s initial brief in District Court of Appeal
(excerpt) ................................................................................................. 10a
Appendix D – Petitioner’s initial brief on jurisdiction in Supreme Court
of Florida (excerpt) ................................................................................ 16a

APPENDIX A
Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

West Headnotes (6)

247 So.3d 523
District Court of Appeal of Florida,
Fourth District.

[1]

Donovan Jonathan TILLMAN,
Appellant,
v.
STATE of Florida, Appellee.

Criminal Law Power and duty
of court
Trial court did not abuse its
discretion
in
excluding
defendant’s
mother
from
courtroom during trial for sexual
battery involving the defendant’s
younger cousin, despite the fact
that the mother was listed as a
Class C witness in the State’s
discovery request; the prosecutor
maintained that he might call
the mother on rebuttal, the
mother was the sister of the
victim’s mother, the victim’s
mother had called defendant’s
mother when she discovered that
her
son
was
abused
by
defendant, the defendant texted
the victim’s mother, expressing
regret for the incidents at issue
in the trial, and the mother likely
confronted the defendant about
the accusations. Fla. R. Crim. P.
3.220(b).

No. 4D13–2516
|
[August 23, 2017]
|
Rehearing Denied May 30, 2018
Synopsis
Background: Defendant was convicted
in the Circuit Court, 17th Judicial
Circuit, Broward County, Barbara A.
McCarthy, J., of sexual battery and
lewd or lascivious molestation of a
minor by a person under the age of 18,
and sentenced to 31.125 years in
prison. Defendant appealed.

Holdings: The District Court of Appeal,
Warner, J., held that:
trial court did not abuse its
discretion in excluding defendant’s
mother
from
courtroom
during
defendant’s trial, and
[1]

[2]

Criminal Law Power and duty
of court
The trial judge is endowed with a
sound judicial discretion to
decide
whether
particular
prospective witnesses should be
excluded from the so-called
sequestration of witnesses rule.

defendant was not “in custody”
during interrogation.
[2]

Affirmed.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(1a)

1

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

[3]

during interrogation such that
Miranda warnings had to be
administered; defendant was
brought to the station by his
mother in the middle of the
afternoon at the request of the
detective, defendant’s mother
remained in the lobby during the
questioning,
defendant
had
already admitted the allegations
of abuse in a prior interrogation
in which defendant waived his
Miranda rights, defendant knew
of
the
purpose
of
the
interrogation, the detective did
not confront him with victim
statements, the door to the
interrogation room was not
locked,
defendant
seemed
relatively
relaxed
at
the
beginning of the interrogation
and agreed with the detective
that he was there of his own
accord, and the detective told the
defendant he was free to leave at
any time and explained to him
exactly how he could exit the
building, defendant said he
understood that he could leave,
and he did leave at the end of
the interview.

Criminal Law Power and duty
of court
When a party requests that
witnesses be excluded from trial
under the sequestration rule,
then generally, the trial court
will exclude all prospective
witnesses from the courtroom, in
order to avoid the witnesses’
testimony being colored by what
he or she hears from other
testifying witnesses.

[4]

Criminal Law Burden of
showing error
Where the trial court exercises
its discretion in excluding a
witness under the sequestration
rule or allowing a witness to
remain in the courtroom, it is
the complaining party’s burden
to show an abuse of discretion
which caused injury.

[5]

[6]

Criminal Law Particular cases
or issues
Infants Warnings and counsel;
waivers

Criminal Law Opinion evidence
Defendant did not preserve for
appeal his claim that the trial
court erred in allowing experts to
express opinions based upon
studies rather than training and
experience, where he failed to

Defendant, who was 16 or 17 at
time of alleged incidents of
sexual abuse, was not in custody

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(2a)

2

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

object at trial.

Second, appellant contends that the
court erred in denying a motion to
suppress his statements to a detective,
which were given without the warnings
required of Miranda v. Arizona, 384
U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d
694 (1966). The court did not err,
however, in finding that appellant was
not in custody and thus Miranda
warnings were not compelled. Finally,
we reject his claim that he was
convicted of a nonexistent crime, as
contact between the tongue and a
sexual
organ
constitutes
sexual
battery. We also affirm appellant’s
sentence based upon Davis v. State,
199 So.3d 546 (Fla. 4th DCA 2016).

*524 Appeal from the Circuit Court for
the Seventeenth Judicial Circuit,
Broward County; Barbara A. McCarthy,
Judge; L.T. Case No. 11001165CF10A.
Attorneys and Law Firms
Carey Haughwout, Public Defender,
and Gary Lee Caldwell, Assistant Public
Defender, West Palm Beach, for
appellant.
Pamela Jo Bondi, Attorney General,
Tallahassee, and Anesha Worthy,
Assistant Attorney General, West Palm
Beach, for appellee.

1

Warner, J.
Appellant challenges his conviction and
sentence for four counts of sexual
battery and two counts of lewd or
lascivious molestation of a minor by a
person under the age of eighteen. He
raises four main issues as to his
conviction, and we affirm as to all,
addressing three, as well as his
sentence. First, he claims that the
court abused its discretion in refusing
to allow his mother to sit through the
pretrial suppression hearing and trial
after the state invoked the rule of
sequestration, because the state had
listed the mother in discovery as a
“Class C” witness who was not
expected to be called.1 We conclude
that the court did not abuse its
discretion,
given
the
State’s
representation that the mother could
be called as a rebuttal witness and the
fact that this was a familial crime.

Rule 3.220, Fla. R. Crim. P. defines
the various categories of witnesses
who may be called. Category C
witnesses are all witnesses who
perform ministerial functions or
whom the prosecutor does not intend
to call at trial, or whose knowledge is
fully set out in a police report.

Appellant,
who
was
sixteen
or
seventeen at the time of the incidents,
was charged with sexual battery and
lewd or lascivious molestation for
abuse of his cousin, who was five or six
years old at the time of the incidents,
which occurred at the victim’s home as
well as the home of another relative.
The sexual battery incidents involved
appellant placing his mouth over the
victim’s penis and having the victim do
the same to appellant. The lewd and
lascivious counts were incidents where
appellant touched the victim’s penis
both above and beneath his clothes. In
two
statements
to
investigators
appellant admitted the incidents,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(3a)

3

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

although he sought to suppress the
more incriminating statement. The
victim also made a statement, through
a therapist, confirming the abuse.
Appellant was convicted after trial of all
counts and ultimately sentenced to
31.125 years in prison, *525 the lowest
permissible sentence for the charges.
He appeals his convictions on various
grounds.

that his stepfather might be a
witness and could be sequestered.

rule in Florida and
elsewhere is that the trial judge is
endowed with a sound judicial
discretion to decide whether particular
prospective
witnesses
should
be
excluded
from
the
so-called
sequestration
of
witnesses
rule.”
Spencer v. State, 133 So.2d 729, 731
(Fla. 1961). When a party requests that
witnesses be excluded from trial under
the sequestration rule, then generally,
the trial court will exclude all
prospective
witnesses
from
the
courtroom, in order to avoid the
witnesses’ testimony being colored by
what he or she hears from other
testifying witnesses. Id.; Goodman v. W.
Coast Brace & Limb, Inc., 580 So.2d
193, 194 (Fla. 2d DCA 1991). Where
the trial court exercises its discretion in
excluding a witness or allowing a
witness to remain in the courtroom, it
is the complaining party’s burden to
show an abuse of discretion which
caused injury. Spencer, 133 So.2d at
731.

[2]

[1]In

his first issue, appellant claims
that the court erred in excluding his
mother from the courtroom. At the
suppression hearing, and again at trial,
appellant sought to have his mother
remain
in
the
courtroom.
The
prosecutor objected on the ground that
the State might call the mother as a
witness and invoked the rule of
sequestration.2 Noting that in the
discovery request the mother was listed
as a Class C witness, the defense
objected to the mother’s exclusion.
Pursuant to rule 3.220(b), Florida
Rules of Criminal Procedure, “Class C”
witnesses are witnesses who perform
ministerial functions or whom the
prosecutor does not intend to call at
trial, or whose knowledge is fully set
out in a police report. Because the
mother was neither a witness who
performed ministerial functions nor
whose knowledge was set out in a
police report, the defense argued that
the mother was a “witness” that the
State did not intend to call at trial;
therefore, sequestration should not
apply to the mother. Nevertheless, the
trial court excluded the mother from
the hearing as well as from the trial.
2

[3]

[4]“The

We cannot say that under the rule the
trial court abused its discretion in
excluding appellant’s mother. The
prosecutor maintained that he might
call the mother on rebuttal, depending
upon whether the appellant testified
and what he said. While the mother
had no direct knowledge of the
incidents, she was the sister of the
victim’s mother. The victim’s mother
had called appellant’s mother when she
discovered that her son was abused by
appellant. Shortly after that call,

In his brief he also claims his
stepfather was also improperly
excluded, but at trial he conceded

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(4a)

4

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

appellant texted his aunt, expressing
regret for the incidents. Thus, at the
very least, the mother must have
confronted her son about her sister’s
accusations. And what he said to her
could have been very relevant to the
prosecution. Because of the familial
relationships involved, the trial court
was within its discretion in determining
that appellant’s mother should be
excluded from the courtroom so that
her testimony, if necessary, would not
be affected by what she might hear
from
other
testifying
witnesses,
including her sister and the appellant,
if he testified.

statement was more detailed than
the first and contained appellant’s
admission of abuse of two other
children.

Miranda warnings apply only to
in-custody interrogations. Ross v.
State, 45 So.3d 403, 414 (Fla. 2010). In
Ramirez v. State, 739 So.2d 568 (Fla.
1999), the Florida Supreme Court
explained that determining whether a
suspect is in custody for purposes of
giving Miranda warnings is a mixed
question of law and fact. It set forth a
four factor test to determine whether a
person is in custody:

[5]In

a second claim of error, appellant
argues that the court erred in denying
his motion to suppress his confession
to a detective. Appellant made two
statements to police. The first was to a
Pembroke Pines detective and the
second to a Coral Springs detective.
Appellant filed a motion to suppress
statements he made to the *526 Coral
Springs detective on grounds that,
although he wasn’t under arrest, this
was a custodial interrogation and he
was not read his Miranda rights.3 The
trial court held a hearing and
concluded that the defendant was not
in custody and thus, the statement was
voluntary. The appellate court defers to
the trial court’s findings regarding the
facts and uses the de novo standard of
review for legal conclusions. Nshaka v.
State, 82 So.3d 174, 178–79 (Fla. 4th
DCA 2012).
3

(1) the manner in which police
summon the suspect for questioning;
(2) the purpose, place, and manner of
the interrogation; (3) the extent to
which the suspect is confronted with
evidence of his or her guilt; (4)
whether the suspect is informed that
he or she is free to leave the place of
questioning.
739 So.2d at 574. The court found that
the defendant in Ramirez was in
custody at the time his statement was
taken. The officers, who already had
probable cause to arrest the defendant,
took
him
to
the
station
and
interrogated him in a small room,
confronting
the
defendant
with
evidence of his guilt. Significantly, the
court noted that the officers never told
the defendant that he was free to leave.
Applying the Ramirez factors to the
facts of this case, we agree with the
trial court that the appellant was not in
custody such that Miranda warnings
were required. Appellant was brought

Appellant waived his Miranda rights
in the first statement and confessed
to some of the same incidents as
were contained in the second
statement. However, the second

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(5a)

5

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

to the stationhouse by his mother in
the middle of the afternoon at the
request of the detective, who had left a
message on the mother’s phone. His
mother remained in the lobby during
the questioning. In contrast, in
Ramirez, a uniformed and armed
deputy came to Ramirez’s home
demanding production of evidence of
the murder and burglary and then
asked Ramirez to come with him to the
station. Clearly, the manner that
Ramirez
was
summoned
for
questioning was far more coercive than
the manner in which appellant arrived
for questioning.

locked, there was no testimony from
the *527 detective that the door was
locked. And the appellant seemed
relatively relaxed at the beginning. He
agreed with the detective that he was
there of his own accord. Finally, as to
the fourth factor, and contrary to what
occurred in Ramirez, the detective told
the appellant he was free to leave at
any time. She even explained to him
exactly how he could exit the building,
and he said he understood that he
could leave, and he did leave at the end
of the interview.
In sum, the four Ramirez factors do not
point to a conclusion that appellant
was in custody such that Miranda
warnings had to be administered. The
court properly denied the motion to
suppress.

As to the second and third factors, the
interrogation of appellant must be
placed in the context that this was
appellant’s
second
interrogation
regarding the same abuse allegations.
He had already admitted the allegations
of abuse to the Pembroke Pines
detective, after having waived his
Miranda rights. Thus, the appellant
knew
of
the
purpose
of
the
interrogation, and the Coral Springs
detective told appellant that she had
read the report of the other detective.
Then the detective began by simply
asking the appellant to tell her what he
remembered. At no time did she read
back to him his own prior statements.
She did not confront him with victim
statements for the crimes for which he
was charged, although she did imply
that another victim had told her of
sexual contact with appellant. Mainly,
she simply kept prodding him to
remember the various incidents with
the victim. While he was questioned in
the interrogation room, and the court
considered whether the door was

[6]We

affirm the remaining issues
arising out of the trial. As to his claim
that the court erred in allowing experts
to express opinions based upon studies
rather than training and experience,
the issue was not properly preserved by
a specific objection which raised the
ground now argued in this appeal.
Appellant also claims that the court
erred in allowing collateral crime
evidence of his abuse of another family
member to which he confessed in his
statement to the detective. Under
section 90.404(2)(b), Florida Statutes
(2013), and McLean v. State, 934 So.2d
1248 (Fla. 2006), we conclude that the
evidence was admissible. Even if either
of the foregoing issues were error, we
would conclude that they were
harmless beyond a reasonable doubt,
given his two confessions. State v.
DiGuilio, 491 So.2d 1129 (Fla. 1986).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(6a)

6

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

PER CURIAM.

Appellant also challenges his sentence
of thirty-one years, followed by fifteen
years’ probation, as a violation of the
Cruel
and
Unusual
Punishment
Clauses, because it is a lengthy
term-of-years
sentence
for
a
non-homicide
crime
which
he
committed as a juvenile. His crimes
were committed prior to the enactment
of Chapter 2014–220, which revamped
juvenile sentencing but expressly made
the law prospective. We have already
decided this issue against his position
in Davis v. State, 199 So.3d 546 (Fla.
4th DCA 2016); see also Rollins v.
State, 216 So.3d 644 (Fla. 4th DCA
2017). We certify the same question as
we certified in Davis:

We deny rehearing. As to the
sentencing issue, we have concluded in
Hart v. State, 43 Fla. L. Weekly D970a
(Fla. 4th DCA May 2, 2018), that
Graham v. Florida, 560 U.S. 48, 130 S.
Ct. 2011, 176 L. Ed. 2d 825 (2010), has
not been applied to sentences of thirty
years or less. Thus, chapter 2014-220,
Laws of Florida should not be applied
retroactively to an original sentence
which does not violate Graham.
Although
appellant’s
sentence
is
thirty-one years, we conclude that it
too does not violate Graham and
chapter 2014-220 does not apply.
We certify conflict with the same cases
noted in Hart:

DO
THE
SENTENCE
REVIEW
PROVISIONS ENACTED IN CHAPTER
2014–220, LAWS OF FLORIDA,
APPLY
TO
ALL
JUVENILE
OFFENDERS WHOSE SENTENCES
EXCEED
THE
STATUTORY
THRESHOLDS,
EVEN
THOSE
CONVICTED OF NON–HOMICIDE
OFFENSES COMMITTED PRIOR TO
JULY 1, 2014?

Cuevas v. State, 241 So. 3d 947, (Fla.
[2d DCA] Mar. 9, 2018) (reversing the
denial of a rule 3.800(a) motion and
concluding
that
a
juvenile
non-homicide offender’s sentences of
26
years
in
prison
were
unconstitutional under Graham as
construed in Henry and Johnson);
*528 Blount v. State, 238 So. 3d 913
(Fla. 2d DCA 2018) (reversing the
denial of a rule 3.800(a) motion to
correct
juvenile
nonhomicide
sentences of 40 years in prison and
remanding for resentencing pursuant
to Johnson); Mosier v. State, 235 So.
3d 957 (Fla. 2d DCA 2017) (reversing
the denial of a rule 3.800(a) motion
and concluding that a juvenile
nonhomicide offender’s sentences of
30 years in prison followed by 10
years of sexual offender probation
were unconstitutional under Graham
as construed in Henry and Johnson);
Alfaro v. State, 233 So. 3d 515, 516

For the foregoing reasons, we affirm
both the convictions and sentences.

Ciklin and Klingensmith, JJ., concur.

ON MOTION FOR REHEARING

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(7a)

7

Tillman v. State, 247 So.3d 523 (2017)
42 Fla. L. Weekly D1844, 43 Fla. L. Weekly D1201

(Fla. 2d DCA 2017) (reversing 30-year
sentences for nonhomicide offenses
and rejecting trial court’s conclusion
that “Kelsey only applied to juvenile
offenders like Kelsey who initially
received life sentences but had been
resentenced to a term of years under
Graham”); Burrows v. State, 219 So.
3d 910, 911 (Fla. 5th DCA 2017)
(reversing denial of postconviction
relief and remanding for resentencing
where juvenile offender received
25-year sentences for non-homicide
offenses).
Hart, at *4.

WARNER, J., dissents in part with
opinion.
For the same reasons I dissented in
Hart v. State, 43 Fla. L. Weekly D970a
(Fla. 4th DCA May 2, 2018), I dissent
from the denial of the motion for
rehearing on sentencing. I concur in
the denial of the other grounds for
rehearing.
All Citations
247 So.3d 523, 42 Fla. L. Weekly
D1844, 43 Fla. L. Weekly D1201

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

(8a)

8

APPENDIX B
Filing # 118067400 E-Filed 12/11/2020 12:50:38 PM

Supreme Court of Florida
FRIDAY, DECEMBER 11, 2020
CASE NO.: SC18-1058
Lower Tribunal No(s).:
4D13-2516; 062011CF001165A88810
DONOVAN JONATHAN TILLMAN vs.

STATE OF FLORIDA

Petitioner(s)

Respondent(s)

Upon review of the response(s) to this Court’s order to show cause dated
April 6, 2020, the Court has determined that it should decline to exercise
jurisdiction in this case. See Pedroza v. State, 291 So. 3d 541 (Fla. 2020). The
petition for discretionary review is, therefore, denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2).
CANADY, C.J., and POLSTON, LABARGA, LAWSON, MUÑIZ, COURIEL,
and GROSSHANS, JJ., concur.
A True Copy
Test:

dl
Served:
GARY LEE CALDWELL
ANESHA WORTHY
HON. LONN WEISSBLUM, CLERK
HON. BRENDA D. FORMAN, CLERK
HON. BARBARA ANNE MCCARTHY, JUDGE
(9a)

APPENDIX C

VI. The defendant’s sentence is illegal. He was a juvenile
when the crimes occurred and his sentence of 373.5 months has no
provision for early release. Further, the Criminal Punishment
Code cannot apply to capital felonies, life felonies, and first
degree felonies punishable by a term of years not exceeding life
imprisonment when committed by juveniles.
ARGUMENT
I. THE COURT ERRED IN EXCLUDING THE DEFENDANT’S MOTHER
AND FATHER FROM THE COURTROOM.
A “C” witness is a witness “who performed only ministerial
functions or whom the prosecutor does not intend to call at
trial and whose involvement with and knowledge of the case is
fully set out in a police report or other statement furnished to
the defense.” Fla. R. Crim. P. 3.220(b)(1)(A)(iii).
At bar, the state listed the defendant’s mother as a “C”
witness. R1 12. Nothing indicates that she performed “ministerial functions” in the case. Hence, she was a witness “whom the
prosecutor [did] not intend to call at trial.”
So the state’s own filings showed it did not intend to call
the mother as a witness. She should not have been excluded under
the rule of sequestration.
It does not appear that any of the state’s discovery submissions listed the defendant’s father. R1 11-15, 20, 22. 1 Hence,

1

It did list as a “C” witness a man who lived with the de21

(10a)

the father also could not be barred from the courtroom under the
rule of sequestration.
The rule of sequestration may not be used as a ruse to bar
people from the courtroom. See Gore Newspapers Co. v. Reasbeck,
363 So. 2d 609 (Fla. 4th DCA 1978).
In Gore Newspapers, a clever attorney said a newspaper reporter attending a suppression hearing was a potential witness
and had him excluded under the rule of sequestration. He did
this

again

when

two

other

reporters

appeared.

The

reporters

sought a writ, which this Court granted.
While this Court noted that sequestration is in the sound
discretion of the court, it wrote: “It goes without saying that
witnesses should not be sequestered indiscriminately. Normally
‘the

rule’

is

invoked

without

ceremony

as

a

routine

matter;

however, when its use is challenged, as it was here, the trial
judge must determine that its use is proper and then exercise
his discretion whether to allow sequestration.” Id. at 611.
At bar, the state’s claim that it might call the mother and
the father as potential witnesses was not as blatant a ruse as
in Gore Newspapers, but it was still baseless.
It listed the mother as a person it did not intend to call,
and did not list the father at all. Despite repeated requests by

fendant’s mother, R1 12, ER 12, but he was not the defendant’s
father.

22

(11a)

the

defense

for

some

explanation

as

to

what

their

testimony

would be, the state merely theorized that they might rebut some
hypothetical testimony of the defendant. T1 15-16; T6 791.
In fact, the prosecutor said he did not know what the parents would testify to:
MS. GIRAULT-LEVY: They
they testifying to?

are

[C]

witnesses.

What

are

THE COURT: I don't know.
MR. EL RASHIDY: Yes, that's exactly my point. I don't
know.
T4 554, ER 712.
During jury selection, the state made clear it did not intend to call the parents as witnesses as it did not include them
in its list of potential witnesses read to the jury. T3 347-48;
T4 507-508; T4 578-79.
Moreover, it is not a normal practice for a party to invoke
the rule of sequestration against its own witness over the objection of the party that would supposedly be harmed by the
witness’s testimony. If the state was truly concerned that the
defendant’s parents would change their (never disclosed) testimony, the solution would have been to memorialize it by deposition. See Beasley v. State, 774 So. 2d 649, 669 (Fla. 2000)
(holding that trial court properly exempted victim’s next of kin
from rule of sequestration where their testimony had been memorialized in prior depositions).

23

(12a)

On these facts, the state’s claim that the parents were
witnesses subject to the rule of sequestration was baseless.
Further, even where a party moves to exclude someone who is
a legitimate fact witness, upon objection the court must make an
inquiry to determine whether the witness’s “exclusion from the
rule will result in prejudice to the [moving party].” Gore v.
State, 599 So. 2d 978, 986 (Fla. 1992).
Here, the court made no inquiry to determine whether the
state would be prejudiced by exclusion of the parents from the
rule of sequestration. It frankly admitted that it did not know
what, if anything they might testify to. T4 554, ER 712.
Exclusion of the parents constituted a partial closure. A
partial closure is justified only if (1) the party seeking closure shows “an overriding interest that is likely to be prejudiced,” (2) the closure is “no broader than necessary to protect
that interest,” (3) the court considers reasonable alternatives,
and (4) “the court must make findings adequate to support the
closure.”

Kovaleski

v.

State,

103

So.

3d

859,

860-61

(Fla.

2012); (partial closure of trial); Waller v. Georgia, 467 U.S.
39, 48 (1984) (closure of suppression hearing).
“[W]ithout exception all courts have held that an accused
is at the very least entitled to have his friends, relatives and
counsel present, no matter with what offense he may be charged.”
In re Oliver, 333 U.S. 257, 271-72 (1948) (citing, inter alia,

24

(13a)

State v. Beckstead, 88 P.2d 461 (Utah 1939) (error to exclude
friends and relatives of accused during testimony of alleged
victim in case of carnal knowledge of minor)).
The partial closure at bar requires reversal. While there
seems

to

courts
where

be

of
a

no

Florida

other

states

defendant’s

case
have

family

directly
ordered

members

on

point,

reversal

or

friends

of

the

highest

convictions

have

been

ex-

cluded. See People v. Nieves, 683 N.E.2d 764 (N.Y. 1997) (ordering new trial because court barred defendant’s wife and children
during

undercover

officer’s

testimony

absent

evidence

showing

their presence would endanger officer); People v. Mateo, 536
N.E.2d 1146 (N.Y. 1989) (ordering new trial because of exclusion
of defendant’s family members and friends during testimony of
state’s main witness; trial court’s sole reliance on information
transmitted

by

the

prosecutor

was

insufficient);

Longus

v.

State, 7 A.3d 64 (Md. 2010) (ordering new trial because of exclusion of two friends of defendant during testimony of state’s
main witness; court erred in relying on generalized allegations
of the prosecutor without evidentiary support); State v. Ortiz,
981 P.2d 1127 (Haw. 1999) (ordering new trial because of exclusion of defendant’s family during trial based on allegation of
jury intimidation where evidentiary hearing did not show there
was intimidation); State v. Torres, 844 A.2d 155 (R.I. 2004)
(ordering

new

trial

because

of

25

(14a)

exclusion

of

defendant’s

two

sisters during jury selection).
II. THE COURT ERRED IN ALLOWING IMPROPER EVIDENCE AS
TO WHY A CHILD MAY NOT REPORT SEXUAL ABUSE.
Both at the pretrial hearing and at trial, the state relied
on evidence based on the training of the sexual assault center
witnesses and scientific research as to why a child may initially deny being the victim of a sexual crime. The court erred in
allowing this testimony over objection.
At the pretrial hearing, Ms. Vazquez testified that, based
on her training and experience, “it’s common for kids to deny
abuse.” What the state asked why, counsel objected on grounds of
relevancy and speculation as to why the child in this case said
there had been no abuse. The court overruled the objection based
on “training and experience.” T1 28-29, ER 183-84.
The witness then testified:
Q. So let’s back up. Based on your training and experience, why is it that, what are some of the reasons
that children don’t always come into the SATC and tell
you the full story the first time?
A. First of all, they could be afraid that they are
going to get in trouble. Sometimes they are made to
believe that they were a consenting party with the act
and they feel guilty about what happened, ashamed
about what’s happened. Sometimes if it’s a known person that’s abused them, they don’t want to get that
person into trouble either.
T1 29, ER 184.
At trial, the state asked Ms. Boltz, who did the first interview of the boy, about what might affect how forthcoming a

26

(15a)

APPENDIX D

DCA June 22, 2018), on the same question of law.
In or before 2012, Montgomery was sentenced to a total of
25 years in prison for crimes committed when he was 17. The
Fifth

District

ruled

that

this

sentence

violated

the

Eighth

Amendment under Graham. Montgomery, 230 So. 3d at 1258.
In Ostane, the defendant received a 30 year sentence for a
crime committed when he was 17. The crime occurred sometime before 2002. The Fifth District held that he was entitled to an
opportunity for early release under Graham, Johnson, Montgomery,
Burrows and cases from this Court.
III. Direct and express conflict as to the exclusion
of the defendant’s mother from the courtroom
Under the Due Process and Public Trial Clauses of the state
and federal constitutions, a defendant is entitled to the presence of close family members at his or her trial.
“[W]ithout exception all courts have held that an accused
is at the very least entitled to have his friends, relatives and
counsel present, no matter with what offense he may be charged.”
In re Oliver, 333 U.S. 257, 271-72 (1948) (citing, inter alia,
State v. Beckstead, 88 P.2d 461 (Utah 1939) (error to exclude
friends and relatives of accused during testimony of alleged
victim in case of carnal knowledge of minor)).
Further, upon objection, the court must make an inquiry to
determine if allowing the person to sit in the courtroom “will

6

(16a)

result in prejudice” to the party seeking to remove him or her.
Gore v. State, 599 So. 2d 978, 986 (Fla. 1992).
Here,

exclusion

of

the

defendant’s

mother

constituted

a

partial closure. A partial closure is justified only if (1) the
party

seeking

closure

shows

“an

overriding

interest

that

is

likely to be prejudiced,” (2) the closure is “no broader than
necessary to protect that interest,” (3) the court considers
reasonable alternatives, and (4) “the court must make findings
adequate to support the closure.” Kovaleski v. State, 103 So. 3d
859, 860-61 (Fla. 2012); (partial closure of trial); Waller v.
Georgia, 467 U.S. 39, 48 (1984) (suppression hearing).
There was no “overriding interest … likely to be prejudiced” by the mother’s presence. Where one has a constitutional
right to have family present in court, exclusion is proper only
if there is an alternative available to meet the purpose of the
rule for sequestration of witnesses. See Beasley v. State, 774
So. 2d 649, 669 (Fla. 2000) (holding trial court properly exempted victim’s next of kin from rule of sequestration where
their testimony had been memorialized in prior depositions).
By listing the defendant’s mother under category “C,” the
state declared that, at most, she was a person “who performed
only ministerial functions or whom the prosecutor does not intend to call at trial and whose involvement with and knowledge
of the case is fully set out in a police report or other state-

7

(17a)

ment

furnished

to

the

defense.”

Fla.

R.

Crim.

P.

3.220(b)(1)(A)(iii). (Emphasis added.) As the lower court acknowledged, the mother did not perform ministerial functions,
and her knowledge was not set out in police reports. App. A2.
The decision below is directly and expressly contrary to
Gore, Kovaleski and Beasley on the same point of law. The defendant was deprived of a basic constitutional right under In re
Oliver and Waller. See also People v. Nieves, 683 N.E.2d 764
(N.Y. 1997); People v. Mateo, 536 N.E.2d 1146 (N.Y. 1989); Longus v. State, 7 A.3d 64 (Md. 2010); State v. Ortiz, 981 P.2d
1127 (Haw. 1999); State v. Torres, 844 A.2d 155 (R.I. 2004).
The state can always claim members of the defendant’s family may have information that could be used in rebuttal. To affirm the ruling below would allow routine exclusion of the defendant’s family from a defendant’s trial.
IV. Direct and express conflict as to custodial interrogation
Under the state and federal constitutions, the police must
advise suspects of their rights before custodial interrogation.
J.D.B. v. North Carolina, 564 U.S. 261 (U.S. 2011); Wilson v.
State,

242

So.

3d

484

(Fla.

2d

DCA

2018)

(“The

protection

against self-incrimination is … set forth in article I, section
9, of the Florida Constitution, and this fundamental right must
be broadly construed.”); Amend. V, XIV, U.S. Const.

8

(18a)

